Department of Homeland Security
   Ofﬁce of Inspector General
     Annual Review of the United States Coast Guard's
             Mission Performance (FY 2008)




OIG-10-17                                    November 2009
                                                              Office ofInspector Generaf

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 25028




                                                              Homeland
                                                              Security
                                    NOV 16 2009

                                          Preface

The Department of Homeland Security (DHS) Office oflnspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the annual review of the U.S. Coast Guard's mission performance,
as required by the Homeland Security Act of2002. It is based on interviews with
employees and officials of relevant agencies and institutions and a review of applicable
documents.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.

                                      ~~c;(,~
                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1

Background ..........................................................................................................................2

Results of Review ................................................................................................................3

     Resource Hours for Non-Homeland Security and Homeland Security Missions..........3

     Coast Guard’s Mission Performance .............................................................................6

     FY 2009 Budget Projections..........................................................................................7

     Management Comments and OIG Analysis ..................................................................7

Appendices
     Appendix A:           Purpose, Scope, and Methodology.........................................................8
     Appendix B:           Management Comments to the Draft Report .......................................10
     Appendix C:           Non-Homeland Security Missions.......................................................11
     Appendix D:           Homeland Security Missions ...............................................................22
     Appendix E:           Major Contributors to this Report........................................................35
     Appendix F:           Report Distribution ..............................................................................36

Abbreviations
     DHS                   Department of Homeland Security
     DOG                   Deployable Operations Group
     FY                    Fiscal Year
     GAO                   Government Accountability Office
     OIG                   Office of Inspector General




                 Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)
OIG
Department of Homeland Security
Office of Inspector General


Executive Summary
                    This report presents our annual review of the U.S. Coast Guard’s
                    mission performance as required by the Homeland Security Act of
                    2002. To address this Act’s requirements, we reviewed the Coast
                    Guard’s performance measures and results for each non-homeland
                    security and homeland security mission, as well as resource hours
                    used to perform the various missions from Fiscal Years 2001
                    through 2008.

                    Although we did not verify the accuracy of Coast Guard data, the
                    data show that for the seventh consecutive year the Coast Guard, in
                    fiscal year 2008, dedicated more resource hours to homeland
                    security missions than non-homeland security missions. The data
                    also show that the gap between homeland security and non-
                    homeland security resource hours is narrowing. Coast Guard
                    performance measurement information shows that it met more
                    non-homeland security mission performance measures than
                    homeland security measures. Coast Guard-provided budget
                    projections for Fiscal Year 2009 show a narrowing of the gap
                    between homeland security and non-homeland security missions.

                    This report contains no recommendations. The Coast Guard had
                    no comments to the report. A copy of the Coast Guard’s response
                    is attached at Appendix B.




        Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                           Page 1
Background
                  Coast Guard Missions. Section 888 of the Homeland Security
                  Act of 2002 (Act), Public Law 107-296, dated November 25, 2002,
                  directs the Inspector General to conduct an annual review that
                  assesses the performance of all the Coast Guard missions, with a
                  particular emphasis on non-homeland security missions. This
                  Section also defines the Coast Guard’s 11 statutory missions as
                  either non-homeland security missions or homeland security
                  missions, as follows:

                  Non-Homeland Security Missions
                      Marine Safety
                      Search and Rescue
                      Aids-to-Navigation
                      Living Marine Resources
                      Marine Environmental Protection
                      Ice Operations

                  Homeland Security Missions
                     Ports, Waterways, and Coastal Security
                     Drug Interdiction
                     Migrant Interdiction
                     Defense Readiness
                     Other Law Enforcement

                  In addition, Section 888 of the Act prohibits the Secretary from
                  substantially or significantly reducing any of the Coast Guard’s
                  missions or its capability to perform those missions, subsequent to
                  the transfer of the Coast Guard to the Department of Homeland
                  Security (DHS).

                  Resource Hours. The Coast Guard uses resource hours—
                  generally, the number of flight hours (for aircraft) and underway
                  hours (for boats and cutters) used to carry out a specific mission—
                  to determine the amount of time that is expended on each of its
                  non-homeland security and homeland security missions. During
                  our review, we obtained data on the total number of resource hours
                  reported by the Coast Guard from a baseline of pre-September 11,
                  2001 data, through Fiscal Year (FY) 2008. The Coast Guard-
                  calculated baseline is an annual average of resource hours based on
                  eight FY quarters preceding September 11, 2001. We did not,
                  however, verify the resource hour data reported by the Coast
                  Guard, nor did we validate whether the Coast Guard accurately


      Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                         Page 2
                     classified resource hours used for each mission. We assessed total
                     resource hours for the 11 individual missions in order to identify
                     the changes in each.

                     Performance Measures and Results. The Coast Guard’s
                     performance is measured as part of the DHS Performance
                     Management Framework, which ties DHS’ goals and objectives to
                     its mission-oriented programs. Program performance goals are
                     reported in terms of their associated performance measures, which
                     express tangible and measurable objectives against which actual
                     achievements can be compared.

Results of Review
     Although we did not verify the accuracy of Coast Guard data, the data show that
     for the seventh consecutive year the Coast Guard, in FY 2008, dedicated more
     resource hours to homeland security missions than non-homeland security
     missions. The data also show that the gap between homeland security and non-
     homeland security resource hours is narrowing. Coast Guard performance
     measure information shows that it met more non-homeland security mission
     performance measures than homeland security measures. Coast Guard-provided
     budget projections for Fiscal Year 2009 show a narrowing of the gap between
     homeland security and non-homeland security missions.

     Resource Hours for Non-Homeland Security and Homeland
     Security Missions
            Prior to FY 2001, the majority of resource hours were dedicated to non-
            homeland security missions; however, since FY 2002, the majority of
            resource hours have been dedicated to homeland security missions, as
            illustrated in the following chart




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                            Page 3
                                              Resource Hours - All Missions
                                         Non-Homeland Security Missions     Homeland Security Missions

                   900000
                   800000

  Resource Hours
                   700000
                   600000                                                       57%       55%             55%
                   500000                                  62%                                      57%
                                                 58%                 63%
                                       41%
                   400000     38%

                   300000
                   200000     62%      59%       42%                            43%       45%       43%   45%
                                                           38%       37%
                   100000
                        0
                            Baseline   2001     2002       2003      2004       2005     2006      2007   2008
                                                                  Fiscal Year



             The Coast Guard data also show that the gap between resource hours for
             homeland security versus non-homeland security missions is narrowing
             from a 26% difference in FY 2004 (63% of resource hours used for
             homeland security missions versus 37% for non-homeland security
             missions) to 10% for FY 2008. Total Coast Guard-reported resource
             hours, composed of the number of flight hours (for aircraft) and underway
             hours (for boats and cutters) used on a specific mission, dropped for the
             third straight year to 742,386 in FY 2008, declining more than
             3.5% compared to 770,716 in FY 2007. Of that total in FY 2008, non-
             homeland security resource hours increased to 334,901, increasing 1.9%
             compared to 328,617 the previous year. In contrast, homeland security
             resource hours declined significantly to their lowest level since FY 2002 at
             407,485 in FY 2008, decreasing 7.8% compared to 442,099 the previous
             year.

             The following table shows that the largest percentage of all Coast Guard
             resource hours was utilized for the Ports, Waterways, and Coastal Security
             mission, accounting for 27.7% of total resource hours for FY 2008.




Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                  Page 4
                                                                                               TABLE 1
                                                                              % of                      % of                       % of                 % of
                                                                              Total                     Total                      Total                Total
                                                                 FY 05       Mission          FY 06    Mission    FY 07           Mission    FY 08     Mission
                 Mission                                         Hours       Hours            Hours    Hours      Hours           Hours      Hours     Hours
Non-Homeland Security
Search and Rescue                                                74,974        9.52%          59,914    7.74%     59,999           7.78%      61,321     8.27%
Marine Safety                                                    40,123        5.09%          68,277    8.82%     49,379           6.41%      45,794     6.16%
Aids-to-Navigation                                              114,469       14.53%         105,566   13.64%    102,088          13.25%     106,638    14.37%
Ice Operations                                                   11,398        1.45%           6,877    0.89%     10,230           1.33%      11,938     1.61%
Marine Environmental
Protection                                                        5,199        0.66%           4,509    0.58%      2,628           0.34%       3,441     0.46%
Living Marine Resources                                          88,712       11.26%          99,850   12.90%    104,293          13.53%     105,769    14.24%
Sub- Total                                                      334,875       42.51%         344,993   44.57%    328,617          42.64%     334,901    45.11%
Homeland Security
Illegal Drug Interdiction                                         74,678       9.48%          94,116   12.16%      75,175          9.75%      75,892    10.23%
Undocumented Migrant
Interdiction                                                      71,800       9.11%          67,936     8.78%     98,899         12.83%      74,918    10.09%
Other Law Enforcement                                              5,794       0.74%           5,112     0.66%      9,213          1.20%       8,272     1.11%
Ports, Waterways, Coastal
Security                                                        257,411       32.68%         216,595   27.98%    219,662          28.50%     205,715    27.71%
Defense Readiness                                                43,182        5.48%          45,360    5.85%     39,150           5.08%      42,688     5.75%
Sub-Total                                                       452,865       57.49%         429,119   55.43%    442,099          57.36%     407,485    54.89%
Total                                                           787,740     100.00%          774,112   100.00%   770,716      100.00%        742,386   100.00%

                                                    The percentages of total hours by statutory mission areas are illustrated in
                                                    the following graph.
                      Homeland Security




                                                             Defense Readiness
                                              Ports, Waterways, Coastal Security
                                                        Other Law Enforcement
 Statutory Missions




                                              Undocumented Migrant Interdiction
                                                          Illegal Drug Interdiction
                                                        Living Marine Resources
                      Non-Homeland Security




                                                Marine Environmental Protection
                                                                                                                                                 FY08
                                                                  Ice Operations
                                                                                                                                                 FY07
                                                              Aids-to-Navigation                                                                 FY06
                                                                   Marine Safety                                                                 FY05
                                                             Search and Rescue
                                                                                      0%


                                                                                                5%


                                                                                                        10%


                                                                                                                 15%


                                                                                                                            20%


                                                                                                                                       25%


                                                                                                                                                30%


                                                                                                                                                         35%




                                                                                            Percentage of Total Resource Hours by Fiscal Year



                                                 Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                                                           Page 5
                Summaries of each non-homeland security mission and homeland security
                mission are included in appendices C and D, respectively.

        Coast Guard’s Mission Performance
                The Coast Guard reported that it met 12 of its 25 performance measures in
                FY 2008, including meeting 7 of 12 non-homeland security performance
                measures and 5 of the 13 homeland security performance measures. Of
                the 25 performance measures for FY 2008, 17 were new, including 8 new
                measures for non-homeland security missions and 9 new measures for
                homeland security missions. The following table summarizes the Coast
                Guard’s success in meeting its performance measures and highlights its
                performance in meeting the new measures.

                                                TABLE 2
                                                                           Number of            Number of
                                                           Number of      Performance          Performance
                                       Number of          Performance       Measures          Measures Met
             Mission
                                      Performance          Measures       Used for First     That Were Used
                                      Measures in            Met in        Time in FY         for First Time
                                        FY 2008             FY 2008           2008              in FY 2008
Non-Homeland Security
  Search and Rescue                         1                0 of 1            N/A                N/A
  Aids-to-Navigation                       2                1 of 2              1                1 of 1
  Ice Operations                            2                2 of 2             1                1 of 1
  Living Marine Resources                   1                0 of 1            N/A                N/A
  Marine Safety                             3               2 of 3              3                2 of 3
  Marine Environmental Protection           3                2 of 3             3                2 of 3
   Total Non-Homeland                      12               7 of 12             8                6 of 8
Homeland Security
  Ports, Waterways, and
                                            7                3 of 7              6               2 of 6
  Coastal Security
  Drug Interdiction                         1                 1 of 1           N/A                 N/A
  Migrant Interdiction                      1                0 of 1             1                 0 of 1
  Defense Readiness                         3                 0 of 3            2                 0 of 2
  Other Law Enforcement                     1                 1 of 1           N/A                 N/A
   Total Homeland                          13                5 of 13            9                 2 of 9
TOTALS                                     25               12 of 25           17                8 of 17

                The performance measures and results for non-homeland security missions
                and homeland security missions are included in appendices C and D,
                respectively.




            Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                 Page 6
          FY 2009 Budget Projections

                           According to the Coast Guard’s FY 2009 budget projections
                           presented in the Annual Performance Report 1 , during FY 2009 the
                           Coast Guard expects to close the gap between non-homeland
                           security missions and homeland security missions. The Coast
                           Guard expects to expend 49.3% of its FY 2009 budget on non-
                           homeland security missions and 50.7% on homeland security
                           missions. The Ports, Waterways, and Coastal Security mission
                           will remain the largest user of Coast Guard resources in FY 2009.

          Management Comments and OIG Analysis
                           The Coast Guard had no comments to the OIG’s analysis of the U.S.
                           Coast Guard’s Mission Performance for Fiscal Year 2008 report.

                           We included the comments from the Chief, Office of Budget and
                           Programs for the U.S. Coast Guard in Appendix B.




1
    Department of Homeland Security Annual Performance Report – Fiscal Years 2008 - 2010


               Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                  Page 7
Appendix A
Purpose, Scope, and Methodology

                      Section 888 (f) (1) of the Homeland Security Act of 2002 directs
                      the Inspector General to conduct an annual assessment of the Coast
                      Guard’s performance of all its missions, with a particular emphasis
                      on non-homeland security missions. The objective of this review
                      was to determine the extent to which the Coast Guard is
                      maintaining its historical level of effort on non-homeland security
                      missions.

                      We reviewed the following Government Accountability Office
                      (GAO) reports and testimonies:

                          Coast Guard Observations on the Fiscal Year 2009 Budget,
                           Recent Performance, and Related Challenges, GAO-08-494T,
                           March 6, 2008;
                          Coast Guard Deepwater Program Management Initiatives and
                           Key Homeland Security Missions, GAO-08-531T, March 5,
                           2008;
                          Coast Guard Preliminary Observations on Deepwater
                           Program Assets and Management Challenges, GAO-07-446T,
                           February 15, 2007;
                          Coast Guard Efforts to Improve Management and Address
                           Operational Challenges in the Deepwater Program,
                           GAO-07-460T, February 14, 2007; and
                          Coast Guard Observations on the Fiscal Year 2008 Budget,
                           Performance, Reorganization, and Related Challenges, GAO-
                           07-489T, April 18, 2007.

                      We analyzed the total number of resource hours reported by the
                      Coast Guard prior to September 11, 2001, through FY 2008. We
                      did not attempt to verify the resource hour data, nor did we attempt
                      to validate whether the Coast Guard had accurately categorized
                      such data. We assessed total resource hours for the 11 individual
                      Coast Guard missions to identify the changes in each.

                      We analyzed performance measures and targets to determine
                      whether the measures for each of the Coast Guard’s missions had
                      been accomplished. We obtained information on performance
                      from the Department of Homeland Security Annual Performance
                      Report, Fiscal Years 2008–2010. We also held discussions with
                      Coast Guard officials to obtain information on why the Coast
                      Guard did not meet its performance measures for certain missions.

                      We conducted our review between January 2009 and August 2009
                      under the authority of the Inspector General Act of 1978, as


          Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                             Page 8
Appendix A
Purpose, Scope, and Methodology

                      amended, and according to the Quality Standards for Inspections,
                      issued by the Council of the Inspectors General on Integrity and
                      Efficiency. We relied on data provided by the Coast Guard, but did
                      not verify those data against original documentation.

                      We would like to extend our appreciation for the cooperation and
                      courtesies extended by the Coast Guard to our staff during the review.




          Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                             Page 9
Appendix B
Management Comments to the Draft Report




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                            Page 10
Appendix C
Non-Homeland Security Missions

                                               Non-Homeland Security Missions

                                               The Performance Measures and Results for Appendix C were
                                               taken from the FY 2008 Annual Performance Report, provided by
                                               the Coast Guard. An “Explanation of Results” and “Corrective
                                               Actions” were provided in those cases where the current year’s
                                               target was not met. 2

                                               Resource Hours. The FY 2008 total non-homeland security
                                               resource hours were up 1.9% from FY 2007 reaching 334,901 for
                                               non-homeland security missions, as illustrated in the following
                                               graph.


                                                                  Non-Homeland Security Resource Hours

                                            400,000
                                            350,000
                      R e s ourc e H ours




                                            300,000
                                            250,000
                                            200,000
                                            150,000
                                            100,000
                                             50,000
                                                  0
                                                      Baseline   2001   2002      2003      2004       2005   2006   2007   2008
                                                                                         Fiscal Year



                                               Performance Measures and Results. For FY 2008, the Coast
                                               Guard met 7 of 12 performance measures for its six non-homeland
                                               security missions, as compared with meeting two of six non-
                                               homeland security performance measures in FY 2007.

                                               The performance measures and results for each non-homeland
                                               security mission are summarized below.

                                               Search and Rescue

                                               Minimizing the loss of life, personal injury, and property damage
                                               or loss by rendering aid to persons in distress and property in the
                                               maritime environment has always been a Coast Guard priority.



2
    Department of Homeland Security Annual Performance Report – Fiscal Years 2008 - 2010


               Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                                        Page 11
Appendix C
Non-Homeland Security Missions

                     Resource Hours. Search and rescue is a demand-driven mission.
                     Requirements for search and rescue service increase or decrease
                     relative to the number of people at sea and their need for Coast
                     Guard assistance. Resource hours for the Search and Rescue
                     mission show a significant increase of 14.8% in FY 2005
                     attributable to the Coast Guard’s response to Hurricane Katrina.
                     Resource hours in FY 2008 increased approximately 2% over
                     FY 2007. The following graph shows the number of resource
                     hours used by the Coast Guard for the search and rescue mission
                     from the baseline period through FY 2008.
                                                                      Search and Rescue Resource Hours

                                              100,000
                        R e s ourc e H ours




                                               80,000

                                               60,000

                                               40,000

                                               20,000

                                                   0
                                                        Baseline   2001    2002       2003      2004       2005      2006     2007    2008
                                                                                             Fiscal Year




                     Performance Measures and Results. The one performance
                     measure related to Search and Rescue was not met for the third
                     consecutive year. The performance measure used in FY 2008,
                     “percent of mariners in imminent danger saved,” will be replaced
                     with a new performance measure for FY 2009, “percent of people
                     in imminent danger saved in the maritime environment.”

                                                     Search and Rescue
                              Performance Measure – Percent of mariners in imminent danger saved
                                       FY     FY      FY       FY     FY       FY     FY      FY
                                      2001   2002    2003    2004    2005     2006   2007    2008

                       Target                           85%        85%        85%       85%         86%           86%       86%      87%


                       Actual                           84.2%      84.4%      87.7%    86.8%       86.1%          85.3%     85.4%    83.6%

                                                         X          X                                              X         X        X
                                                                                                    
                       Result                           Not        Not                                            Not       Not      Not
                                                                              Met       Met          Met
                                                        Met        Met                                            Met       Met      Met

                     Explanation: According to information provided by the Coast
                     Guard and presented in the Department of Homeland Security’s
                     Performance Report, Fiscal Years 2008–2010, the FY 2008 target

         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                                    Page 12
Appendix C
Non-Homeland Security Missions

                     was missed, as both the number of search and rescue cases
                     (24,225) and the number of lives saved (4,104) declined from
                     FY 2007 levels (26,940 and 4,574, respectively). Most of the
                     decrease occurred from spring through fall of 2008, the seasons
                     that normally post the highest number of cases and lives saved.
                     The performance report notes that the drop in cases mirrors closely
                     the economic downturn and may be a result of fewer mariners on
                     the water, including those who would otherwise be available to
                     assist in search and rescue efforts. The number of lives lost
                     increased from 788 in FY 2007 to 808 in FY 2008.

                     Corrective Action: According to the Coast Guard, examination of
                     case and lives saved data did not indicate any clear reason as to
                     why both the number of cases and lives saved declined so
                     significantly. Economic issues appear to be the primary driver.
                     The Coast Guard will continue to field system improvements and
                     work to identify areas of emphasis for improving search and rescue
                     response.

                     Aids-to-Navigation

                     The Aids-to-Navigation mission is a means for the Coast Guard to
                     mark the waters of the United States and its territories to assist
                     boaters in navigation and alert them to obstructions and hazards.

                     Resource Hours. The chart below shows FY 2008 resource hours
                     at a 4.4% increase from FY 2007, constituting an approximate
                     4.9% decrease from the baseline level.

                                                                      Aids-to-Navigation Resource Hours

                                             140,000
                                             120,000
                        Reso u rce Ho u rs




                                             100,000
                                              80,000
                                              60,000
                                              40,000
                                              20,000
                                                   0
                                                       Baseline    2001     2002   2003      2004       2005   2006   2007   2008
                                                                                          Fiscal Year




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                                  Page 13
Appendix C
Non-Homeland Security Missions

                     Performance Measures and Results. There were two
                     performance measures related to Aids-to-Navigation in FY 2008.
                     One measure was met and one was not met.

                                                          Aids-to-Navigation
                                Performance Measure – Federal short range aids-to-navigation availability
                                     FY      FY        FY        FY         FY        FY        FY         FY
                                    2001    2002      2003      2004       2005      2006      2007       2008

                       Target       N/A       N/A       N/A       N/A       N/A       N/A      N/A      97.5%


                       Actual       N/A       N/A       N/A       N/A       N/A       N/A      N/A       98.3%

                                                                                                          
                       Result
                                                                                                          Met


                                                          Aids-to-Navigation
                       Performance Measure – Five-year average number of collisions, allisions, and groundings
                                  FY       FY        FY        FY       FY          FY           FY       FY
                                 2001     2002      2003      2004     2005        2006         2007     2008

                       Target      2,261     2,098      2,010    1,923    ≤ 1,831    ≤1,748   ≤ 1,664   ≤ 1,756


                       Actual       2,215     2,098     2,000    1,876     1,877     1,816     1,823     1,857


                                                                        X         X         X         X
                       Result
                                    Met       Met       Met       Met     Not Met   Not Met   Not Met   Not Met



                     Explanation: According to information provided by the Coast
                     Guard and presented in the Department of Homeland Security’s
                     Performance Report, Fiscal Years 2008–2010, the program’s
                     efforts to limit disruptions to waterways and enhance capacity and
                     safety have been successful as the resultant long-term downward
                     trend indicates. This positive trend exists despite including a prior
                     year increase in the number of allision events being captured in the
                     5-year average, and despite vessel traffic increases of more than
                     10% since 2002 (measured in terms of total vessel transits,
                     deadweight tonnage, and waterborne commerce). The impact of
                     vessel traffic is reflected in the target recalculation and resulting
                     increase of almost 100 incidents compared to last year’s target.

                     Corrective Action: The program uses a number of practices to
                     achieve its waterways safety and efficiency goals and to meet the
                     targets for this metric. Many factors, such as weather, topography,
                     bridge clearance and maintenance, vessel characteristics and
                     traffic, mariner experience and competence, and aids-to-navigation
                     mix, impact waterways risks. To reduce these risks, aids-to


         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                              Page 14
Appendix C
Non-Homeland Security Missions

                          navigation strategy relies heavily on stakeholder involvement for
                          risk identification and mitigation. The Coast Guard leads these
                          risk-based efforts through its Harbor Safety Committees, local
                          waterways assessment studies, and port safety assessments, which
                          provide the means to organize, address, and resolve issues. These
                          issues include safety and navigation, port congestion, commercial
                          issues, dredging, vessel traffic service, port competitiveness, and
                          overall port and waterway management.

                          Ice Operations

                          This mission encompasses icebreaking activities in the Great
                          Lakes, St. Lawrence Seaway, and Northeast. 3 These activities
                          facilitate the movement of bulk cargoes carried by regional
                          commercial fleets during the winter months.

                          Resource Hours. The fluctuations in resource hours are not
                          unusual, since this mission is dependent on ice accumulation,
                          which fluctuates on an annual basis. In FY 2008, resource hours
                          increased by 16.6% from FY 2007, to equal the baseline level.

                                                                                Ice Operations Resource Hours

                                                     20,000
                           R e s o u rc e H o u rs




                                                     15,000
                                                     10,000
                                                      5,000
                                                         0
                                                              Baseline   2001    2002    2003     2004        2005   2006   2007   2008
                                                                                                Fiscal Year




                          Performance Measures and Results. There were two
                          performance measures related to Ice Operations in FY 2008, and
                          both were met.




3
  In addition to domestic ice operations, the Coast Guard operates the only U.S.-controlled icebreakers
capable of operations in the polar regions. The Coast Guard operates these cutters and is reimbursed for
their operation and maintenance by the National Science Foundation. Resource hours for polar operations
are included in the chart; however, only Coast Guard-directed domestic ice operations performance targets
are measured.


             Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                                           Page 15
Appendix C
Non-Homeland Security Missions

                                                             Ice Operations
                        Performance Measure – Number of days critical waterways are closed due to ice
                                FY      FY       FY       FY         FY       FY         FY        FY
                               2001    2002     2003     2004       2005     2006       2007     2008
                                                                          2 avg.    2 avg.   2 avg.   2 avg.
                      Target     8         2             8         2      and 8     and 8    and 8    and 8
                                                                          severe    severe   severe   severe

                      Actual     7        7              7         4          0       0        0        0

                                         X                        X
                                                                                                  
                      Result             Not                      Not
                                Met                  Met                      Met    Met      Met      Met
                                         Met                      Met


                                                             Ice Operations
                                       Performance Measure – Percent success rate in
                                           meeting requests for polar ice breaking
                                 FY      FY        FY        FY        FY        FY           FY       FY
                                2001    2002      2003      2004      2005      2006         2007     2008

                      Target    N/A      N/A         N/A          N/A     N/A       N/A      N/A      100%


                      Actual    N/A      N/A         N/A          N/A     N/A       N/A      N/A      100%


                                                                                                       
                      Result
                                                                                                       Met



                     The measure of percent success rate in meeting requests for polar
                     ice breaking was retired in FY 2008. In FY 2009, this measure
                     will be replaced by the measure, “U.S. Coast Guard asset hours
                     employed in polar operations.”

                     Living Marine Resources

                     This program’s mission is to provide effective and professional at-
                     sea enforcement of federal fisheries and other regulations to
                     advance national goals for the conservation and management of
                     Living Marine Resources and their environments.

                     Resource Hours. Since FY 2002, resource hours have steadily
                     increased each year. FY 2008 levels were higher than the baseline
                     and all previous years.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                               Page 16
Appendix C
Non-Homeland Security Missions

                                                                         Living Marine Resource Hours

                                              120,000
                                              100,000




                        R eso u rce Ho u rs
                                               80,000
                                               60,000
                                               40,000
                                               20,000
                                                   0
                                                        Baseline    2001     2002   2003      2004       2005     2006    2007   2008
                                                                                           Fiscal Year



                     Performance Measures and Results. There was one
                     performance measure related to Living Marine Resources in
                     FY 2008, and it was not met.

                                                                           Living Marine Resources
                               Performance Measure – Percent of Coast Guard boardings at sea in which no
                                significant violations are detected when domestic fisheries regulations apply
                                        FY        FY         FY       FY      FY         FY         FY       FY
                                       2001      2002       2003     2004    2005       2006      2007      2008

                      Target                        97%            97%      97%      97%          97%           97%      97%      97%


                      Actual                       98.6%      97.3 %        97.1%   96.3%        96.4%          96.6%    96.2%   95.3%

                                                                                      X            X              X        X       X
                                                                           
                      Result                                                         Not          Not            Not      Not     Not
                                                    Met            Met       Met
                                                                                     Met          Met            Met      Met     Met


                     Explanation: In FY 2008, results ended below the Coast Guard’s
                     goal for domestic fisheries at sea-observed compliance rate. The
                     missed 97% target is the result of an increase in violations realized
                     due to increased agency partnerships and increased use of
                     technology, resulting in improved maritime domain awareness.
                     The Coast Guard continues to detect the largest proportion of
                     significant violations in the Atlantic sea scallops, Gulf of Mexico
                     shrimp, and Northern multispecies fisheries.

                     Corrective Action: The Coast Guard will continue to target the
                     individual fisheries with the preponderance of significant
                     violations in the South Atlantic and Gulf of Mexico shrimp,
                     Northeast multispecies, and Atlantic sea scallops fisheries. In
                     addition, the Coast Guard will continue to focus on improving
                     operational effectiveness as well as focus operations and boardings


         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                                     Page 17
Appendix C
Non-Homeland Security Missions

                     in those fisheries where the observed compliance rates are lowest,
                     to achieve the desired deterrence effect, which is intended to
                     increase the overall compliance rate.

                     Marine Safety

                     The Marine Safety program ensures the safe operation and
                     navigation of United States and foreign-flagged vessels. The Coast
                     Guard is responsible for providing safe, efficient, and
                     environmentally sound waterways for commercial and recreational
                     users. Domestic vessel inspections and port state control (foreign
                     vessel) examinations are conducted in order to safeguard maritime
                     commerce and international trade.

                     Resource Hours. The Coast Guard did not report hours for this
                     mission prior to 2005. Resource hours for Marine Safety
                     decreased by approximately 7.2% from FY 2007 to FY 2008.

                                                                    Marine Safety Resource Hours

                                       80,000
                      Resource Hours




                                       60,000

                                       40,000

                                       20,000

                                           0
                                                 Baseline    2001     2002   2003      2004       2005    2006    2007         2008
                                                                                    Fiscal Year


                     Performance Measures and Results. There were three
                     performance measures related to Marine Safety in FY 2008. Two
                     measures were met and one was not met.

                                                                         Marine Safety
                                                     Performance Measure – Five-year average number of
                                                            commercial mariner deaths and injuries
                                                 FY        FY      FY        FY       FY        FY      FY            FY
                                                2001      2002    2003      2004     2005      2006    2007          2008

                      Target                    N/A         N/A       N/A     N/A        N/A        N/A     N/A      <501


                      Actual                    N/A         N/A       N/A     N/A        N/A        N/A     N/A          479


                                                                                                                         
                      Result
                                                                                                                         Met




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                              Page 18
Appendix C
Non-Homeland Security Missions

                                                            Marine Safety
                                           Performance Measure – Five-year average number of
                                                  recreational boating deaths and injuries
                                       FY        FY        FY        FY       FY        FY    FY       FY
                                      2001      2002      2003      2004     2005      2006  2007     2008

                            Target    N/A      N/A      N/A      N/A        N/A     N/A         N/A   <4,252


                            Actual    N/A      N/A      N/A      N/A        N/A     N/A         N/A   4,070


                                                                                                       
                            Result
                                                                                                       Met


                                                            Marine Safety
                                           Performance Measure – Five-year average number of
                                                 commercial passenger deaths and injuries
                                       FY        FY      FY        FY       FY        FY      FY       FY
                                      2001      2002    2003      2004     2005      2006    2007     2008

                            Target    N/A      N/A      N/A      N/A        N/A     N/A         N/A   <225


                            Actual    N/A      N/A      N/A      N/A        N/A     N/A         N/A    244

                                                                                                       X
                            Result                                                                     Not
                                                                                                       Met


                           Explanation: According to information provided by the Coast
                           Guard and presented in the Department of Homeland Security’s
                           Performance Report, Fiscal Years 2008–2010, commercial
                           passenger deaths and injuries have varied significantly from one
                           year to the next. The 5-year average of commercial passenger
                           deaths and injuries increased from 216 in FY 2006 to 244 in FY
                           2008 4 . In part, the Coast Guard attributes this increase to the 112
                           injuries caused by severe listing on the cruise ship Crown Princess
                           in July 2006. While the 5-year average appears to be increasing,
                           actual deaths and injuries in 2007 and 2008 decreased.

                           Corrective Action: The program has several initiatives to hire
                           more marine inspectors and investigators. According to the Coast
                           Guard, this hiring should show positive results as these personnel
                           are hired and assigned to field units. A Marine Safety Performance
                           Plan was drafted in FY 2008 to raise awareness and increase the
                           importance of this mission. The Performance Plan also allows the
                           maritime industry to participate and offer ideas for new initiatives.



4
    Fiscal Year 2008, Coast Guard Performance Report, May 2009, page 17


               Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                  Page 19
Appendix C
Non-Homeland Security Missions

                     Marine Environmental Protection

                     The Marine Environmental Protection program falls under the
                     Coast Guard’s stewardship role and is concerned with averting the
                     introduction of invasive species, stopping unauthorized ocean
                     dumping, and preventing the discharge of oil or hazardous
                     substances into the navigable waters of the United States.

                     Resource Hours. The Coast Guard did not report resource hours
                     prior to FY 2005. Resource hours declined from FY 2005 to
                     FY 2007, before increasing by 30.9% in FY 2008.

                                                        Marine Environmental Protection Resource Hours

                                         6,000
                                         5,000
                        Resource Hours




                                         4,000
                                         3,000
                                         2,000
                                         1,000
                                            0
                                                 Baseline   2001   2002   2003      2004       2005    2006    2007     2008
                                                                                 Fiscal Year




                     Performance Measures and Results. There were three
                     performance measures related to Marine Environmental Protection
                     in FY 2008. Two measures were met and one was not met.

                                                              Marine Environmental Protection
                      Performance Measure – Five-year average number of chemical discharge incidents per
                                               100 million short tons shipped
                                FY       FY        FY        FY         FY     FY        FY        FY
                               2001     2002      2003      2004       2005   2006      2007      2008

                      Target                     N/A        N/A     N/A     N/A            N/A        N/A      N/A      <26.6


                      Actual                     N/A        N/A     N/A     N/A            N/A        N/A      N/A       19.7

                                                                                                                X
                                                                                                                         
                      Result
                                                                                                                         Met
                                                                                                              not met




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                             Page 20
Appendix C
Non-Homeland Security Missions

                                            Marine Environmental Protection
                               Performance Measure – Five-year average number of oil spills per
                                              100 million short tons shipped
                                 FY      FY       FY        FY         FY     FY           FY         FY
                                2001    2002     2003      2004       2005   2006         2007       2008

                      Target    N/A       N/A      N/A       N/A      N/A       N/A        N/A      <13.5


                      Actual    N/A       N/A      N/A       N/A      N/A       N/A        N/A       12.7

                                                                                            X
                                                                                                     
                      Result
                                                                                                     Met
                                                                                          not met


                                            Marine Environmental Protection
                      Performance Measure – Percent of oil removed or otherwise mitigated as compared to
                              the amount of oil released for reported spills of 100 gallons or more
                                FY       FY          FY        FY        FY          FY        FY    FY
                               2001     2002        2003      2004      2005        2006      2007  2008

                      Target    N/A       N/A      N/A       N/A      N/A       N/A        N/A       15%


                      Actual    N/A       N/A      N/A       N/A      N/A       N/A        N/A      No Data

                                                                                            X
                                                                                                      X
                      Result
                                                                                                    Not Met
                                                                                          not met


                     Explanation: According to information provided by the Coast
                     Guard and presented in the Department of Homeland Security’s
                     Performance Report, Fiscal Years 2008–2010, the program did not
                     establish a methodology to collect the data for the percentage of oil
                     removed or otherwise mitigated as compared to released from
                     reported spills of 100 gallons or more in time for reporting actual
                     results during FY 2008.

                     Corrective Action: According to the Coast Guard, the system to
                     collect this information in a database is not yet in place. However,
                     the program plans to manually collect relevant data to report
                     results for the third quarter of FY 2009. Also using manual
                     calculations, the program plans to report results for all of FY 2009
                     in the FY 2009 DHS Citizens’ Report.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                            Page 21
Appendix D
Homeland Security Missions

                           Homeland Security Missions

                           The Performance Measures and Results for Appendix D were
                           taken from the FY 2008 Annual Performance Report, provided by
                           the Coast Guard. An “Explanation of Results” and “Corrective
                           Actions” were provided in those cases where the current year’s
                           target was not met. 5

                           Total resource hours for homeland security missions peaked in
                           FY 2004, and resource hours decreased 7.8% from FY 2007 to
                           FY 2008. However, the FY 2008 level is significantly (219%)
                           above baseline levels, as depicted in the chart below.

                                                                       Homeland Security Resource Hours

                                               500,000
                              Resource Hours




                                               400,000

                                               300,000

                                               200,000

                                               100,000

                                                    0
                                                         Baseline   2001   2002    2003      2004       2005   2006   2007   2008
                                                                                          Fiscal Year




                           Performance Measures and Results. For FY 2008, the Coast
                           Guard met 5 of 13 performance measures for its five homeland
                           security missions.

                           The performance measures and results for non-homeland security
                           mission are summarized below.

                           Ports, Waterways, and Coastal Security

                           The Ports, Waterways, and Coastal Security mission is to prevent
                           and protect against maritime security threats, reduce America’s
                           vulnerability to those threats, and minimize the adverse
                           consequences of maritime security incidents that occur.

                           Resource Hours. Resource hours for Ports, Waterways, and
                           Coastal Security rapidly increased in response to the events of
                           September 11, 2001. Of all Coast Guard missions, the Ports,
                           Waterways, and Coastal Security mission uses the largest
                           percentage of resource hours.

5
    Department of Homeland Security Annual Performance Report – Fiscal Years 2008 - 2010


               Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                                     Page 22
Appendix D
Homeland Security Missions


                                                                        PWCS Resource Hours

                                         300,000
                                         250,000




                        Resource Hours
                                         200,000
                                         150,000
                                         100,000
                                          50,000
                                              0
                                                   Baseline   2001   2002     2003      2004       2005    2006   2007   2008
                                                                                     Fiscal Year




                     Performance Measures and Results. There are seven
                     performance measures related to Ports, Waterways, and Coastal
                     Security, and six were used for the first time in FY 2008. Of the
                     seven measures, three were met and four were not met in FY 2008.

                                      Ports, Waterways, and Coastal Security
                       Performance Measure – Percent risk reduction for the transfer of a weapon
                                         of mass destruction meta-scenario
                                FY      FY      FY       FY       FY       FY        FY       FY
                               2001    2002    2003     2004     2005     2006      2007     2008

                       Target                      N/A        N/A       N/A      N/A           N/A        N/A     N/A     4%


                       Actual                      N/A        N/A       N/A      N/A           N/A        N/A     N/A    12%

                                                                                                                  X
                                                                                                                           
                       Result
                                                                                                                  not     Met
                                                                                                                  met

                                             Ports, Waterways, and Coastal Security
                              Performance Measure – Percent reduction in the maritime terrorism risk
                                          over which the U.S. Coast Guard has influence
                                      FY       FY      FY       FY      FY       FY      FY       FY
                                     2001     2002    2003     2004    2005     2006    2007     2008

                       Target                      N/A        N/A       N/A      N/A           Est.       14%     15%    15%


                       Actual                      N/A        N/A       N/A      N/A           3.4%       17%     15%    20%

                                                                                                                         
                       Result                                                                  N/A
                                                                                                          Met     Met     Met




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                              Page 23
Appendix D
Homeland Security Missions


                                       Ports, Waterways, and Coastal Security
                        Performance Measure – Percent risk reduction for the transfer of a terrorist
                                                    meta-scenario
                                 FY     FY       FY        FY       FY        FY       FY        FY
                                2001   2002     2003      2004     2005     2006      2007      2008

                       Target     N/A       N/A       N/A     N/A       N/A      N/A       N/A     21%


                       Actual     N/A       N/A       N/A     N/A       N/A      N/A       N/A     29%

                                                                                            X
                                                                                                     
                       Result
                                                                                                    Met
                                                                                          no met

                                        Ports, Waterways, and Coastal Security
                         Performance Measure – Number of Transportation Workers Identification
                                            Credential (TWIC) spot checks
                                 FY      FY      FY       FY      FY       FY     FY        FY
                                2001    2002    2003     2004    2005     2006   2007      2008

                       Target     N/A       N/A       N/A     N/A       N/A      N/A       N/A     30,000


                       Actual     N/A       N/A       N/A     N/A       N/A      N/A       N/A       0

                                                                                                    X
                       Result                                                                       Not
                                                                                                    Met

                     Explanation: According to information provided by the Coast
                     Guard and presented in the Department of Homeland Security’s
                     Performance Report, Fiscal Years 2008–2010, it did not conduct
                     any Transportation Worker Identification Credential spot checks in
                     FY 2008, due to a delay in the national compliance date of April
                     15, 2009. Although a phased-in compliance schedule has been
                     implemented for the Marine Transportation Security Act, the Coast
                     Guard began enforcement of the identification cards on October
                     15, 2008, with the rollout of compliance in Captain of the Port
                     Zones Boston, Northern, and Southeastern New England.

                     Initially, inspectors will check persons with unescorted access for
                     identification card possession and inspect the cards for a photo
                     match, any signs of possible tampering using the overt security
                     features built into the card, and card validation through an
                     expiration date. Inspections will be carried out by Coast Guard
                     personnel during required annual facility inspections. According


         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                            Page 24
Appendix D
Homeland Security Missions

                     to the Coast Guard, to date there has been a negligible impact on
                     maritime commerce and only a few instances of truckers being
                     turned away at gates for failure to have a Transportation Worker
                     Identification Credential.

                     Corrective Action: The Coast Guard awarded a contract at the end
                     of September 2008 for the purchase of up to 300 handheld
                     Transportation Worker Identification Credential readers to be used
                     by facility and vessel security inspectors to check the validity of an
                     identification card carried by individuals with unescorted access to
                     secure areas on Maritime Transportation Security Act–regulated
                     facilities or vessels. The program went into effect on April 15,
                     2009; however, the output measure of “number of Transportation
                     Workers Identification Credential spot checks” is being retired as it
                     does not provide a good measure of performance or compliance.
                     The Coast Guard is piloting a new measure at this time and is
                     projected to have this new measure in place for FY 2010.

                                       Ports, Waterways, and Coastal Security
                         Performance Measure – Risk reduction due to consequence management
                                 FY     FY       FY      FY       FY       FY      FY    FY
                                2001   2002     2003    2004     2005     2006    2007  2008

                       Target     N/A      N/A        N/A    N/A       N/A      N/A       N/A   6%


                       Actual     N/A      N/A        N/A    N/A       N/A      N/A       N/A   5%

                                                                                          X
                                                                                                 X
                       Result                                                                   Not
                                                                                          not
                                                                                                Met
                                                                                          met

                     Explanation: The Coast Guard considers its triad of maritime
                     regimes, domain awareness, and operational capability activities in
                     characterizing its risk reduction efforts due to consequence
                     management. According to the Coast Guard, the changes in
                     performance shown by this measure are likely due to changes in
                     the methodology, specifically improvements in risk assessment
                     methodology within the Maritime Security Risk Assessment
                     Model.

                     Corrective Action: The Coast Guard is working with START and
                     CREATE (DHS Centers of Excellence) to improve the processes
                     and methodologies involved in assessing terrorism risk and
                     performance against terrorism risk.


         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                            Page 25
Appendix D
Homeland Security Missions



                                      Ports, Waterways, and Coastal Security
                       Performance Measure – High-capacity passenger vessel required escort rate
                                FY      FY      FY      FY       FY       FY       FY       FY
                               2001    2002    2003    2004     2005     2006     2007     2008

                       Target     N/A      N/A        N/A    N/A       N/A      N/A       N/A   100%


                       Actual     N/A      N/A        N/A    N/A       N/A      N/A       N/A   58%

                                                                                          X
                                                                                                 X
                       Result                                                                   Not
                                                                                          not
                                                                                                Met
                                                                                          met

                     Explanation: According to information provided by the Coast
                     Guard and presented in the Department of Homeland Security’s
                     Performance Report, Fiscal Years 2008–2010, lack of other
                     government agency participation and shortfalls in performance due
                     to a combination of limited Coast Guard boat availability and
                     shortages of qualified personnel were the primary reasons for not
                     meeting targeted performance.

                     Corrective Action: The program is working to establish
                     appropriate mounted automatic weapons standards and authority in
                     ports where current policies ban the use of these weapons. The
                     ban results in the Coast Guard not getting credit for conducting
                     critical infrastructure visits in these ports. Some ports in the
                     United States do not allow mounted automatic weapon carriage.
                     Since the high-capacity passenger vessel escort does not meet
                     Coast Guard requirements for this activity, the Coast Guard does
                     not take credit for conducting these escorts. Additionally,
                     Maritime Critical Infrastructure/Key Resource visits also require
                     mounted automatic weapons. The program is continuing to work
                     with state and local government partners to improve other
                     government agency participation in critical infrastructure patrols.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                            Page 26
Appendix D
Homeland Security Missions



                                       Ports, Waterways, and Coastal Security
                            Performance Measure – Critical infrastructure required visit rate
                                FY      FY      FY        FY        FY       FY       FY         FY
                               2001    2002    2003      2004      2005     2006     2007       2008

                  Target       N/A      N/A       N/A      N/A       N/A       N/A        N/A   100%


                  Actual       N/A      N/A       N/A      N/A       N/A       N/A        N/A   69%

                                                                                          X
                                                                                                 X
                   Result                                                                       Not
                                                                                          not
                                                                                                Met
                                                                                          met


                     Explanation: According to information provided by the Coast
                     Guard and presented in the Department of Homeland Security’s
                     Performance Report, Fiscal Years 2008–2010, if the number of
                     other government agency and Coast Guard critical infrastructure
                     visits were combined, the target percentage rate for this quarter
                     would have been 74% instead of the 69%, as shown in the above
                     table. The Coast Guard attributes a lack of other government
                     agency participation and shortfalls in Coast Guard boats and
                     qualified crews as primary reasons for not meeting targeted
                     performance.

                     Corrective Action: The program is working to establish
                     appropriate mounted automatic weapons standards and authority in
                     ports where current policies ban the use of these weapons. The
                     ban results in the Coast Guard not getting credit for conducting
                     high capacity passenger vessel escorts in these ports. Also, the
                     program is continuing to work with state and local government
                     partners to improve other government agency participation in
                     critical infrastructure patrols.

                     Drug Interdiction

                     The Coast Guard’s Drug Interdiction mission is key to combating
                     the flow of illegal drugs into the United States. The Coast Guard is
                     the lead federal agency for maritime drug interdiction and shares
                     responsibility for air interdiction with U.S. Customs and Border
                     Protection.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                            Page 27
Appendix D
Homeland Security Missions

                     Resource Hours. As shown in the chart below, the Drug
                     Interdiction mission FY 2008 resource hours increased by 1% from
                     FY 2007, but are 38% below baseline levels.

                                                         Illegal Drug Interdiction Resource Hours

                                       140,000
                                       120,000

                      Resource Hours
                                       100,000
                                        80,000
                                        60,000
                                        40,000
                                        20,000
                                            0
                                                  Baseline     2001    2002      2003      2004         2005    2006   2007    2008
                                                                                        Fiscal Year


                     Performance Measures and Results. There was one
                     performance measure related to Drug Interdiction for FY 2008.
                     The Coast Guard estimates that it will meet its performance target
                     based on forecasted cocaine flows, which will be validated in the
                     summer of 2009.
                                                                          Drug Interdiction
                                            Performance Measure – Removal rate for cocaine that is shipped via
                                                           noncommercial maritime means
                                              FY       FY       FY      FY          FY        FY         FY                      FY
                                             2001     2002     2003    2004        2005      2006       2007                    2008

                      Target                     15%         18.7%     20.7%       15%            19%          22%     26%      28%

                                                                                                                               32.4%
                      Actual                     11.7%       10.6%     16.3%      30.7%        27.3%           26%     32.6%
                                                                                                                                Est

                                               X               X         X                                                  
                      Result
                                             Not Met         Not Met   Not Met     Met            Met          Met     Met      Met


                     This measure was retired in FY 2008, and it will be replaced in
                     FY 2009 with the measure, “Removal rate for cocaine from non-
                     commercial vessels in maritime transit zones.”

                     Undocumented Migrant Interdiction

                     The Undocumented Migrant Interdiction mission responsibilities
                     consist of enforcing immigration laws at sea. To fulfill its
                     responsibilities, the Coast Guard conducts patrols and coordinates
                     with other federal agencies and foreign countries to interdict



         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                                Page 28
Appendix D
Homeland Security Missions

                     undocumented migrants at sea, denying them entry via maritime
                     routes to the United States, its territories, and its possessions.

                     Resource Hours. Resource hours declined more than 24% from
                     FY 2007 to FY 2008; however, they still remained more than
                     150% above baseline levels.

                                                         Undocumented Migrant Interdiction Resource Hours

                                         120,000
                                         100,000
                        Resource Hours



                                          80,000
                                          60,000
                                          40,000
                                          20,000
                                              0
                                                   Baseline    2001     2002   2003      2004       2005   2006     2007      2008
                                                                                      Fiscal Year




                     Performance Measures and Results. There was one
                     performance measure related to Migrant Interdiction for FY 2008,
                     and it was not met.

                                                                        Migrant Interdiction
                                     Performance Measure – Percent of undocumented migrants who attempt to enter
                                                the United States via maritime routes and are interdicted
                                              FY      FY       FY        FY        FY        FY         FY   FY
                                             2001    2002     2003      2004      2005      2006       2007 2008

                            Target                 N/A        N/A     N/A      N/A       N/A         N/A     N/A       65%


                             Actual                N/A        N/A     N/A      N/A       N/A         N/A    65.2%     62.7%


                                                                                                                        X
                              Result
                                                                                                                      Not Met



                     Explanation: According to information provided by the Coast
                     Guard and presented in the Department of Homeland Security’s
                     Performance Report, Fiscal Years 2008–2010, migrant flow was
                     below historical trends during the summer months of 2008. The
                     Coast Guard is evaluating numerous possible reasons for this
                     decrease, including increased operations, recent indictments of
                     suspected smugglers, political and economic conditions in Cuba,
                     and the use of biometrics to identify and arrest individuals
                     interdicted in the Florida Straights.


         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                              Page 29
Appendix D
Homeland Security Missions

                     The dramatic rise in the use of high-speed go-fast vessels to
                     smuggle Cuban migrants across the Florida Straits, which have a
                     significantly greater success rate than traditional rafts and rusticas,
                     is the single biggest factor affecting the Migrant Interdiction Rate.
                     The interdiction rate of Cuban migrants dropped to a low of 38.6%
                     in FY 2008. Haitian flow continues to be sporadic and is
                     consistent with the previous 2 years. The decline in Dominican
                     flow is most likely due to prosecutions resulting from biometrics.

                     According to the Coast Guard, it pilot tested an at-sea, real-time
                     biometric capability in 2007 and 2008 as part of its Migrant
                     Interdiction mission in the Mona Pass, the body of water
                     separating the Dominican Republic from Puerto Rico. The Coast
                     Guard’s new capability to quickly and reliably identify smugglers,
                     illegal migrants on repeated trips to the United States, and
                     Dominicans that had been previously deported from the United
                     States has provided a strong deterrent for Dominicans illegally
                     attempting to enter the United States via the Mona Pass.

                     The biometric capability enables the Coast Guard and the United
                     States government to consistently prosecute these individuals and
                     deliver a meaningful consequence—jail time. The Coast Guard is
                     seeking budgetary support to expand its biometric capabilities to
                     support all of its law enforcement missions. The identification rate
                     for the fourth quarter of FY 2008 was 62.4%, a decrease from
                     68.2% percent when compared to the fourth quarter of FY 2007.
                     For FY 2008, the interdiction rate was 62.7%, which is a decrease
                     from 65.2% during FY 2007.

                     Corrective Action: The Coast Guard is attempting to counter
                     Cuban migrants reaching the U.S. via go-fast vessels with
                     increased surveillance (for early detection), new tactics (including
                     noncompliant vessel-on-vessel use of force), and enhanced
                     interagency operations (in coordination with the Homeland
                     Security Task Force-South East).

                     Defense Readiness

                     The Defense Readiness mission provides essential capabilities to
                     support national security and military strategies. Resource hours
                     depict the execution of these defense missions, while the
                     performance measures and results measure the Coast Guard’s
                     readiness to perform the mission.



         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                            Page 30
Appendix D
Homeland Security Missions

                     Resource Hours. As shown in the chart below, resource hours for
                     Defense Readiness reached their highest level in FY 2006 in
                     comparison with the baseline. Resource hours increased by 9%
                     from FY 2007 to FY 2008.

                                                            Defense Readiness Resource Hours

                                       50,000
                      Resource Hours
                                       40,000

                                       30,000

                                       20,000

                                       10,000

                                           0
                                                Baseline   2001   2002      2003      2004       2005    2006   2007    2008
                                                                                   Fiscal Year



                     Performance Measures and Results. There were three
                     performance measures related to Defense Readiness for FY 2008,
                     and none of them were met.

                                                                       Defense Readiness
                                                    Performance Measure – Defense readiness of patrol boats
                                                 FY        FY      FY       FY        FY         FY         FY            FY
                                                2001      2002    2003     2004      2005       2006       2007          2008

                      Target                    N/A        N/A        N/A      N/A           N/A        N/A     N/A     100%


                      Actual                    N/A        N/A        N/A      N/A           N/A        N/A     65.2%    95%


                                                                                                                          X
                      Result
                                                                                                                        Not Met



                     Explanation: The Coast Guard missed the patrol boat readiness
                     target by 5%. According to information provided by the Coast
                     Guard and presented in the Department of Homeland Security’s
                     Performance Report, Fiscal Years 2008–2010, the continued
                     decline of the patrol boat fleet, due in large part to aging of the
                     hulls and mechanical systems, has made achieving readiness
                     standards increasingly difficult. Many assets are more than 20
                     years old and are beyond their intended service lives.

                     Corrective Action: Patrol boat readiness is being addressed in part
                     by the Deepwater Program, whose assets are expected to yield
                     increased capability for defense readiness mission performance.

         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                            Page 31
Appendix D
Homeland Security Missions

                     This includes the new class of patrol boats, the Fast Response
                     Cutter. The Fast Response Cutter contract was awarded in
                     September 2008 for the design and construction of up to 34
                     vessels. The first Fast Response Cutter will be delivered in 2010.

                                                    Defense Readiness
                               Performance Measure – Defense readiness of Port Security Units
                                  FY      FY      FY       FY        FY        FY       FY                 FY
                                 2001    2002    2003     2004      2005      2006     2007               2008

                      Target      N/A     N/A       N/A       N/A        N/A        N/A         N/A       100%


                      Actual      N/A     N/A       N/A       N/A        N/A        N/A         N/A      24.45%

                                                                                                           X
                      Result                                                                               Not
                                                                                                           Met


                     Explanation: According to information provided by the Coast
                     Guard and presented in the Department of Homeland Security’s
                     Performance Report, Fiscal Years 2008–2010, low Port Security
                     Unit numbers are due in large part to selected skill shortages and
                     training deficiencies. Shortfalls continue because of personnel
                     rotation, training quotas to fill, and limited equipment and fuel
                     funding.

                     Corrective Action: The Deployable Operations Group (DOG) took
                     ownership of the Port Security Units in 2008 and has begun several
                     initiatives to address readiness issues such as consolidating Port
                     Security Unit commands at the DOG, which has allowed for
                     increased oversight and focus on the Port Security Units.
                     According to the Coast Guard, this consolidation is contributing to
                     an increase in readiness.

                                                        Defense Readiness
                        Performance Measure – Percent of time that U.S. Coast Guard assets included in the
                         Combatant Commander Operational Plans are ready at a Status of Resources and
                                        Training System (SORTS) rating of 2 or better
                                 FY      FY         FY         FY        FY       FY          FY        FY
                                2001    2002       2003      2004       2005     2006        2007      2008

                      Target     100%      100%        100%    100%        100%           100%        100%        100%


                      Actual      67%      70%         78%      76%        69%            62%          51%         56%


                                  X         X         X          X          X           X               X           X
                      Result
                                Not Met   Not Met   Not Met    Not Met    Not Met     Not Met         Not Met     Not Met




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                             Page 32
Appendix D
Homeland Security Missions

                           Explanation: While the Coast Guard did not meet its overall target
                           of 100% defense readiness in FY 2008, the readiness level rose
                           slightly to 56% from 51% in FY 2007.

                           Corrective Action: According to information provided by the
                           Coast Guard, resolution of Port Security Unit personnel shortfalls,
                           along with unit training requirements, is improving unit readiness.
                           Port Security Units have been placed under the command of the
                           DOG, allowing for increased focus on these reserve units. The
                           DOG is pursuing initiatives to address Port Security Unit shortfalls
                           and the Coast Guard expects to see improved readiness in
                           FY 2009. High Endurance Cutter readiness is being addressed in
                           part by the Coast Guard’s major acquisitions, whose assets are
                           expected to yield increased capability for Defense Readiness
                           mission performance, including the National Security Cutter. The
                           first National Security Cutter, Coast Guard Cutter BERTHOLF,
                           was delivered in FY 2008, with additional National Security
                           Cutters to follow in 2009 and 2010.

                           In addition, the Coast Guard is working with the Navy to ensure
                           continued access to the Status of Resources and Training System
                           data as the system is phased out and replaced by the Defense
                           Readiness Reporting System. The Coast Guard utilizes the Status
                           of Resources and Training System to communicate the readiness of
                           its assets in a format compatible with Department of Defense
                           systems. The Coast Guard is currently developing the Coast Guard
                           Readiness Reporting System, which will be compatible with the
                           new Defense Readiness Reporting System. Until this system is
                           developed, the Navy has agreed to keep the Status of Resources
                           and Training System functional so that Coast Guard assets can
                           continue to report readiness to Department of Defense commands.

                           Other Law Enforcement

                           Other Law Enforcement is responsible for preventing illegal foreign
                           fishing vessel encroachment in the U.S. Exclusive Economic Zone. 6
                           The Coast Guard focuses on three high-threat areas for illegal
                           foreign incursions: the United States–Mexican border in the Gulf of

6
 An Exclusive Economic Zone generally extends to a distance of 200 nautical miles (370 km) out from its
coast. Within the Exclusive Economic Zone, the coastal state has sovereign rights for the purpose of
exploring, exploiting, conserving, and managing natural resources, both living and nonliving, of the seabed,
subsoil, and the subjacent waters; and with regard to other activities, for the economic exploitation and
exploration of the zone. The U.S. has the largest Exclusive Economic Zone in the world, encompassing
more than 2.25 million square miles and 90,000 miles of coast line.


              Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                  Page 33
Appendix D
Homeland Security Missions

                     Mexico, the United States–Russian Maritime Boundary Line in the
                     Bering Sea, and the eight noncontiguous Exclusive Economic Zones
                     in the Western/Central Pacific.

                     Resource Hours. As shown in the chart below, the resource hours
                     for the Other Law Enforcement mission were below baseline in
                     every year before FY 2007. After increasing dramatically in
                     FY 2007, resource hours decreased 10% in FY 2008 to just above
                     the baseline level.

                                                                Other Law Enforcement Resource Hours

                                         10,000
                        Resource Hours




                                          8,000

                                          6,000

                                          4,000

                                          2,000

                                             0
                                                   Baseline     2001       2002   2003       2004         2005     2006   2007   2008
                                                                                         Fiscal Year




                     Performance Measures and Results. There was one performance
                     measure related to Other Law Enforcement for FY 2008. In
                     FY 2008, for the fourth year in a row, the Coast Guard met this
                     performance target.

                                                                        Other Law Enforcement
                       Performance Measure – Number of incursions into the U.S. Exclusive Economic Zone
                                FY       FY       FY        FY         FY         FY        FY       FY
                               2001     2002     2003      2004       2005       2006      2007     2008

                      Target                      <202         <202        <202     <202        <200             <199     <199    <195


                      Actual                      212          250          152     247             171          164      119      81



                                                X               X                   X                                         
                      Result
                                              Not Met         Not Met       Met    Not Met          Met          Met      Met     Met




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                                                 Page 34
Appendix E
Major Contributors to this Report


                      Brooke Bebow, Director
                      Frank Lucas, Auditor in Charge
                      Marisa Martinez, Auditor
                      Gloria Medina-Ortiz, Independent Referencer




          Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                             Page 35
Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      USCG Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




          Annual Review of the United States Coast Guard’s Mission Performance (FY 2008)

                                             Page 36
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
